A1
STATE OF NEW YORK COURT OF APPEALS
John P. Asiello
Chief Clerk and
Legal Counsel to the Court
Clerk’s Office
20 Eagle Street
Albany, New York 12207-1095
May 10, 2019
Mr. Xiu Jian Sun
54-25 153rd Street
Flushing, NY 11355
Re: Sun v Jing
Dear Mr. Xiu Jian Sun:
The Court has received your preliminary appeal
statement and will examine its subject matter
jurisdiction with respect to whether on any basis exists
for an appeal as of right. This examination of
jurisdiction shall not preclude the Court from
addressing any jurisdictional concerns in the future.
You should file within ten days after this letter's
date your comments in letter format justifying the
retention of subject matter jurisdiction and a copy of
the papers filed this letter, your adversary is likewise
afforded the opportunity to comment in letter format

A2
on the Court's subject matter jurisdiction within the
same ten-day period after this letter's date. All letters
shall be filed with proof of service of one copy of the
letter on each party.
If applicable, the disclosure statement required to
be filed by corporations and other business entities
pursuant to section 500. 1(1) of the Court of Appeals
Rules of Practice shall be filed with the written
submissions discussed above.
The times within which briefs on the merits must
be filed are held in abeyance during the pendency of
this jurisdictional inquiry. If this inquiry is terminated
by the Court, the Clerk will notify counsel in writing
and set a schedule for the perfecting of the appeal. This
communication is without prejudice to any motion any
party may wish to make.

Very truly yours
John P. Asiello
John P. Asiello
JPA/mnw/ai
cc: James W. Tuffin, Esq.
Charles T. Gura, Esq.

B1
At a Term of the Appellate Division of the
Supreme Court held in and for the First Judicial
Department in the County of New York on April 9,
2019.
Justice Presiding,
Present - Hon. David Friedman,
Judith J. Gische
Barbara R. Kapnick
Troy K. Webber
Ellen Gesmer,
Justices.
x

The Church of Jesus Christ of
Latter-Day Saints, Servant:
Xiu Juan Sun, The Spiritual Adam,
M-1028
Plaintiff-Appellant,
Index No. 100947/17
-againstWu Hua Jing M.D. PhD & Dustin T.
Nguyen, M.D., et al.,
Defendants-Respondents.
x

An appeal having been taken to this Court from the
order of the Supreme Court, New York County, entered
on or about December 13, 2017, and said appeal having
been perfected,
And defendant-respondent Wu Hua Jing M.D. PhD
having moved for dismissal of the aforesaid appeal or,

B2

in the alternative, for a filing injunction against
plaintiff, and to adjourn the time to file a respondent’s
brief,
Now, upon reading and filing the papers with
respect to the motion, and due deliberation having been
had thereon,
It is ordered that the motion is granted to the
extent of dismissing the appeal, and otherwise denied.
ENTERED:
Susanna Rojas
CLERK

B3
At a Term of the Appellate Division of the
Supreme Court held in and for the First Judicial
Department in the County of New York on
January 8, 2019.
Present - Hon. David Friedman,
Judith J. Gische
Barbara R. Kapnick
Marcy L. Kahn
Cynthia S. Kern,

Justice Presiding,

Justices.

X
The Church of Jesus Christ of
Latter Day Saints, Servant:
Xiu Jian Sun, The Spiritual Adam,
Plaintiff-Appellant,
M-5306
-againstIndex No. 100947/17
Wu Hua Jing M.D. PHD and Dustin T.
Nguyen M.D. Lawyers: Jones Hirsch
Connors Miller and Bull, P.C., Michael P.
Kelly, Esq., James P. Connors, Esq.,
Charles T. Gura, Esq., Angela M.
Evangelista, Esq.,
Defendants-Respondents
X
Plaintiff-appellant having moved pursuant to 22
NYCRR 1250.10(c), to vacate the dismissal of the appeal
taken from an order of the Supreme Court, New York
County, entered on or about December 13, 2017, and

B4
upon vacatur, enlarging the time to perfect said appeal,
for leave to prosecute the appeal, as a poor person, and
for other relief,
Now, upon reading and filing the papers with
respect to the motion, and due deliberation having been
had thereon,
It is ordered that the motion is granted to the
extent of vacating the dismissal, reinstating the appeal,
and enlarging the time to perfect said appeal to the
May 2019 Term, and is otherwise denied.

ENTERED:

Susanna Rojas
CLERK

Cl
1000947/2017 ORDER AND DECISION-MOTION TO
DISMISS DUPLICATIVE GRANTED 12/14/17 PART
58 SEQ 001
EA 12/21/17
SUPREME COURT OF THE STATE OF NEW
YORK NEW YORK COUNTY
PRESENT: HON. DAVID BENJAMIN COHEN
PART 58
Justice
x

INDEX NO. 100947/2017
MOTION DATE
CHURCH OF JESUS CHIDST
Plaintiff,
MOTION SEQ NO. 001
DECISION AND ORDER
-vJING, WU HUA
FILED
Defendant
DEC 22 2017
x
YORK NEW YORK COUNTY
COUNTY CLERK
The following papers, numbered
were read on this motion to/for _
Notice of Motion/Petition/OSC-Affidavits-Exhibits ....
No(s)____
Answering Affidavits - Exhibits .... No(s)_____
Replying

No(s)

Upon the foregoing papers, it is

1
C2
This Motion to dismiss is duplicative of Motion
Sequence #002 which was granted by this Court by
Decision and Order dated December 5, 2017. This
motion is deemed withdrawn.

DATED: 12/14/2017
David Beniamin Cohen
David Benjamin Cohen, J.S.C.
HON. David Benjamin Cohen, J.S.C.
CHECK ONE

[XI CASE DISPOSED
[ ]GRANTED
APPLICATION
[ ] SETTLE ORDER
CHECK IF APPROPRIATE [ ] DO NOT POST
[ ] DENIED
[
[
[
[

]
]
]
]

NON-FINAL I POSITION
GRANTED IN ART
SUBMIT ORDER
FIDUCIARY APPOINTMENT

[XI OTHER
[ ]REFERENCE

1000947/2017 CHURCH OF JESUS CHIDST vs.
JING, WU HUA
Printed: 10/19/2018

